      Department of Homeland Security





     Costs Claimed by the Port of Los Angeles Under 

     Port Security Grant Number 2009-PU-R1-0176





            American Recovery and Reinvestment Act of 2009



OIG-13-46                                                    February 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


                                     FEB 28 2013

MEMORANDUM FOR: 	             David J. Kaufman
                              Acting Assistant Administrator
                              Grant Programs Directorate
                              Federal Emergency Management Agency

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT: 	                    Costs Claimed by the Port of Los Angeles Under
                              Port Security Grant Number 2009-PU-R1-0176

Attached for your information is our final letter report, Costs Claimed by the Port of
Los Angeles Under Port Security Grant Number 2009-PU-R1-0176. We incorporated the
formal comments from the Associate Administrator for Policy, Program Analysis and
International Affairs in the report.

The report contains one recommendation to resolve the questioned costs. The
Associate Administrator concurred with the recommendation. As prescribed by the
Department of Homeland Security Directive 077-01, Follow-Up and Resolution for Office
of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on
our website for public dissemination.

Major contributors to this report are Roger LaRouche, Audit Director; Robert Leonard,
Audit Manager; Nick Jather, Auditor; and Stephen Doran, Report Referencer.

Attachment
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   The AmericanfRecoveryfandfReinvestmentfActfoff2009, as amended (Recovery Act)
   appropriated $610 million to the Federal Emergency Management Agency (FEMA) for
   emergency food and shelter programs, and grants for public transit, port security
   assistance, and non-Federal fire station construction. FEMA awarded $150 million of
   that amount in port security grants to 214 ports, port authorities, ferry systems, and
   other eligible entities.

   The purposes of the FEMA port security grants are to support increased port-wide risk
   management; enhance domain awareness; and increase capabilities to prevent, detect,
   respond to, and recover from attacks involving improvised explosive devices, weapons
   of mass destruction, and other nonconventional weapons.

   On September 29, 2009, FEMA awarded a $6 million grant (number 2009-PU-R1-0176)
   to the Port of Los Angeles (port) for a port-wide fiber optics project.1 Reimbursement
   for eligible project costs is based on the grant agreement; Office of Management and
   Budget (OMB) Circular A-87, CostfPrinciplesfforfState,fLocalfandfIndianfTribalf
   Governments;fand FEMA guidance.2 As of August 10, 2012, the Port had claimed project
   costs totaling $5,703,711. The costs covered the period from September 1, 2009,
   through June 30, 2012.

   The FEMA grant agreement also requires the port to comply with Recovery Act
   provisions to submit quarterly recipient reports to the Federal Government; pay
   prevailing wages as determined by the Secretary of Labor; and use steel, iron, and
   manufactured goods produced in the United States.

   Results of Audit
   We questioned $174,060 of the $5,703,711 claimed by the port. The questioned costs
   represent costs incurred at the Cabrillo Way Marina (marina) that were transferred to
   the Port of Los Angeles FEMA grant project. The port could not support the basis for the

   1
     The Port of Los Angeles is a proprietary department of the City of Los Angeles and was created by the
   City Charter to promote and develop a deepwater port facility. It is governed by a five-member Board of
   Harbor Commissioners, which has the duty to provide for the needs of commerce, navigation, and
   fisheries for the citizens of California. It operates similar to a private business and is substantially
   autonomous from the city.
   2
     The Department of Homeland Security’s AmericanfRecoveryfandfReinvestmentfActfoff2009,fPortfSecurityf
   GrantfProgram,fGuidancefandfApplicationfKitfof May 2009 contains FEMA guidance for the port security
   grant program.

www.oig.dhs.gov                                       2                                             OIG-13-46
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   transfer. We also determined that the port fulfilled the requirements for submitting
   quarterly reports, paying prevailing wages, and complying with the requirement to use
   manufactured goods produced in the United States. Furthermore, we concluded that
   the quarterly reports contained adequately supported expenditure and jobs data.

   Unsupported Costs – $174,060

   In June 2010, the port paid a contractor $6,284,867 for work at the marina project.
   Included in that amount was $174,060 that the port determined was for homeland
   security infrastructure. The port issued a journal voucher transferring the $174,060
   from the marina project to the Port of Los Angeles project in January 2011. However,
   the journal voucher did not indicate why the costs should be funded by the FEMA grant
   for the Port of Los Angeles.

   According to the guidelines in OMB Circular A-87, to be allowable, a cost must be
   properly documented and be allocable to the Federal award. Also according to the
   circular, “a cost is allocable to a particular cost objective if the goods or services
   involved are chargeable or assignable to such cost objective in accordance with relative
   benefits received.”

   The grant, grant application, and investment justification for the Port of Los Angeles
   project did not mention any work at the marina. In addition, the construction contract
   for the work at the FEMA-supported Port of Los Angeles involved the installation of
   infrastructure by directional drilling across the Main Channel, Consolidated Channel, and
   Cerritos Channel. The contract did not reference any construction at the marina.

   The port’s FEMA grant construction manager told us that he was not sure why the
   transfer took place. The port’s engineering associate said that she believed the work
   performed at the marina was allowable under the FEMA grant because the work
   involved a fiber optics network that would eventually connect to the three channel sites
   at the Port of Los Angeles. However, without support or adequate justification for the
   transfer, we were unable to determine whether the $174,060 of marina costs was
   applicable to the FEMA grant, and therefore, we questioned the costs.

   Recommendation
   We recommend that FEMA’s Contracting Officer resolve the $174,060 of unsupported
   grant costs.




www.oig.dhs.gov                                3                                      OIG-13-46
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Management Comments and OIG Analysis
   FEMA Comments to the Recommendation

   FEMA Concurs: To resolve the question of $174,060 costs pertaining to the fiber
   infrastructure hardening at the Cabrillo Way marina, FEMA will request that the Port of
   Los Angeles submit an updated Investment Justification/Project Plan outlining the details
   of the expansion of the fiber optic communications network in question.

   After the Grants Program Directorate’s further consideration, FEMA has determined
   that the expansion of the fiber optic communications network to the Cabrillo Way
   Marina would be an eligible cost. This expansion aligns with the project's primary
   purpose of providing a high-speed system that will link the security agencies in charge of
   protecting the port and, as a result, will provide adequate communications necessary
   for daily operations, as well as emergency events. Furthermore, this activity clearly
   aligns with the goals outlined in Port Security Grant Program guidance by providing
   emergency response organizations with the tools and resources necessary to effectively
   protect the port area. If the updated proposal submitted by the Port of Los Angeles is
   acceptable, FEMA will amend its grant to deem the charges for the network expansion an
   eligible cost.

   OIG Analysis

   FEMA’s proposed corrective action is responsive to the recommendation. However, the
   recommendation will remain open and unresolved until final implementation of the
   proposed corrective actions.




www.oig.dhs.gov                                 4                                       OIG-13-46
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objective, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objectives of this audit were to determine whether costs claimed by the port were
   allowable, allocable, and reasonable according to the funding agreement and applicable
   Federal requirements. We also wanted to determine whether the data on expenditure
   and jobs in the most recent quarterly recipient reports was adequately supported. Our
   audit covered claimed costs of $5,703,711 for the period from September 1, 2009, to
   June 30, 2012. This represents the total amount claimed as of August 10, 2012.

   Our tests and procedures included the following:

   •	 Reviewing the Recovery Act, FEMA and OMB guidelines, the FEMA grant, and the
      port’s grant application and investment justification;
   •	 Interviewing FEMA officials to obtain an understanding of the port security grant
      program;
   •	 Interviewing port officials to obtain an understanding of the grant, grant accounting,
      and claims for reimbursement;
   •	 Examining port accounting records and supporting documents for the amounts
      charged to the grant;
   •	 Reviewing the eligibility of the amounts claimed for reimbursement and discussing
      our findings with port officials;
   •	 Inspecting the project; and
   •	 Reviewing the audit working papers of the certified public accounting firm that
      performed the single audit of the port for the fiscal year ending June 30, 2011.

  The single audit of the port was performed by KPMG LLP and included Recovery Act–
  funded FEMA grant costs totaling $287,724 (about 5 percent of claimed costs). The
  single audit report classified the FEMA grant as a major program subject to financial and
  compliance testing. The single audit report did not identify any questionable costs
  related to the grant or any deficiencies in internal controls over financial reporting and
  compliance with applicable Federal requirements. However, the single audit disclosed
  two instances of noncompliance with the requirements of OMB Circular A-133.
  According to the report, (1) the vendor contract files did not have certifications of
  nonsuspension and debarment and (2) the amount of grant expenditures in the
www.oig.dhs.gov                                 5                                  	     OIG-13-46
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   December 31, 2010, quarterly report was understated. We determined that the port
   took corrective action to resolve these two compliance issues.

   We limited the scope of our audit of the port’s internal controls over grant management
   based on our review of work performed by the single audit. In providing us access to its
   audit working papers, KPMG wrote, in part, “… our audit, based on the concept of
   selective testing, is subject to the inherent risk that material errors or fraud, if they exist,
   would not be detected.... Also, our use of professional judgment and the assessment of
   materiality for the purpose of our audit means that matters may have existed that
   would have been assessed differently by you.” Based on issues identified during our
   preliminary work, we included the costs covered by the single audit in our audit tests.

   We tested port records to determine compliance with OMB Circular A-87 and with other
   terms and conditions of the grant. We considered the port’s internal controls over the
   administration of grant funds in determining our audit procedures.

   Our audit was conducted without the benefit of a FEMA technical evaluation of the
   materials used in the construction of the project; therefore, our conclusions are
   qualified to the extent that a technical evaluation may affect the allowability of the
   claimed costs.

   We conducted this performance audit between June and September 2012, pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our finding and conclusion based upon our
   audit objectives.




www.oig.dhs.gov                                   6                                          OIG-13-46
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                       u.s. Ufllanmfnl\Jf II \Jmf l.nd SttUrll~'
                                                                                       Washin,lon. DC 20,172




                                                                          ~tl; FEMA
                                                                           (.j~ .. ~


                                                  DEC 2 1 2012


             MEMORANDUM FOR:                Anne L. Richards
                                            Assistant inspeclor Geneml for Audits
                                            Officc of Inspector Gcneral

              FROM :                        D,vld J. K"rmoo           I/J.I I,~
                                            Associate Administrator foY ~
                                            Policy, Program Analysis and International Affairs

              SUBJECT:                      FEMA' s Response 10 OI G I)RAFT REPORT : "Cosis Cluimed hy
                                            Port 0/ Los A " Ce/cs Under Port S ecurity Grunl Numher 1009-PU-
                                            R /-O/76-For O/ftc/tli Use 0 111)'''
                                            O IG Projcct No. 12- 151 -AU O-FEMA

             The Federal Emergency Management Agency (FEMA) appreciates the opportunity to review and
             respond to the Office of Inspector General ' s (OIG) ORAIT REPORT: "COl'IS Claimed by POrt of
             Los Angeles Under Pori Secllrity Gram Nllmber 2009-PU-RI-O/ 76-For Official Us/! Only": O IG
             Project No. 12-15 l-AUO-FEMA. As noted in our response to your recommendation below,
             FEMA is continuing to work to resolve the issues identified in the audit and we are putti ng in
             place a process to avoid similar challenges in the future .

              OIC Recomm endation 1: We recommend that f'EMA's Contracting Officer resolve the $174,060
              o f unsupported grant costs.

              FEMA Response: COl/cur
              FEMA concurs wi th the recommendation to resolve the questioned costs pertain ing to the fiber
              infrastructure hardening at the Cabrillo Way Marina.

              After funhcr consideration by the Grants Program Di rectorate (GPO). FEMA has detennined
              that the expansion of the fiber-optic communications network to the Cabrillo Way Marina is an
              eligible COSI. This expansion aligns with the project's primary purpose of providing a hi gh-speed
              system that will link the security ugencies in churge of protecting the port, and as a result
              providing adequate communications necessary for dail y operations as well as emergency events,
              Funhennore, this activity clearly aligns with the goals outl ined within the Port Security Grant
              Program Guidance by providing emergency response organi7..ations wi th the tools and resources
              necessary to effectively protect the port area.

              On February 17, 2012, FEMNGPO issued Information Bulletin No. 379, Gllid(mcc 10 SWle
              Adminislralirc Agencies (0 Expedite the Expenditure ofCcrwil1 DHSlF'EMA Gralll Funding.
              One of those provisions outlined within the IB altowed the reprioritization o f gmnt funds , which
              included but not limited to meeting the following: A grantee may choose (0 reprogram and




www.oig.dhs.gov                                                   7                                                                OIG-13-46
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              commit grant funds to an approved project to purchase equipment and/or incur costs that were
              not previously allowable under grant guidance but that are stili within the scope of the
              previously awarded fonds.

              The FY 2009 ARRA Port Security Grant Program is administered by GPD concurrent with
              GPD's administration of the non-ARRA Port Seeurity Grant Program (PSGP) grants. During the
              course of a typical grant life cycle, it is not uncommon for grantees to re-scope a project.
              Therefore, after a thorough review of the details associated with this activity, FEMAlGPD
              believes this action is consistent with current allowability policy and keeping within the spirit
              and intent of the IB to reprioritize and modify projects to accelerate the spending of FY07 -
              FYlI grant funding.

              FEMA will request that the Port of Los Angeles submit an updated Investment
              lustificationIProject Plan outlining the details expansion of the fiber-optic communications
              network in question (C.brillo Way Marina) within 90 days of their receipt of the final rcportwith
              the grantee notification memorandum. If the proposal is acceptable, FEMA will amend their
              grant to incur these charges and deem them as an eligibJe cost.

              FEMA requests that this recommendation be considered resolved and open pending the grantee's
              implementation of this corrective action plan.

              Again, we thank you for the opportunity to review and respond to OIG's draft report, which
              contains recommendations aimed at improving the efficiency of OUT agency_ Should you have
              any further questions regarding our response, please do not hesitate to call Gary McKeon, FEMA
              Chief Audit Liaison, at 202-646-1308.




                                                              2




www.oig.dhs.gov                                              8                                                    OIG-13-46
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Recovery Act Coordinator
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Branch Chief, Transportation Infrastructure Security
   Chief, Audit Branch, Grants Program Directorate

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  9                         OIG-13-46
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
